<html>
<title> - THE PUBLIC SALE OF HURRICANE KATRINA/RITA FEMA TRAILERS: ARE THEY SAFE OR ENVIRONMENTAL TIME BOMBS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]








THE PUBLIC SALE OF HURRICANE KATRINA/RITA FEMA TRAILERS: ARE THEY SAFE 
                      OR ENVIRONMENTAL TIME BOMBS?

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2010

                               __________

                           Serial No. 111-114




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-569                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




















                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont


        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, Jr., New Jersey       GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     7
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     8
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................     8
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    10
Hon. John P. Sarbanes, a Representative in Congress from the 
  State of Maryland, opening statement...........................    11
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    11
    Prepared statement...........................................    13
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    15
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................    15
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    16

                               Witnesses

David Garratt, Associate Administrator, FEMA Mission Support 
  Bureau, Department of Homeland Security........................    17
    Prepared statement...........................................    21
James J. Jones, Deputy Assistant Administrator, Office of 
  Prevention, Pesticides, and Toxic Substances, U.S. 
  Environmental Protection Agency................................    27
    Prepared statement...........................................    29
Steven Kempf, Acting Commissioner, Federal Acquisition Service, 
  General Services Administration................................    36
    Prepared statement...........................................    38
Gabe Chasnoff, Director and Producer, Renaissance Village........    51
    Prepared statement...........................................    53
Corey Hebert, M.D., Chief Medical Officer, Recovery School 
  District, Louisiana Department of Education....................    58
    Prepared statement...........................................    61
Curtis Howard, President, National Association of State Agencies 
  for Surplus Property...........................................    66
    Prepared statement...........................................    68

 
THE PUBLIC SALE OF HURRICANE KATRINA/RITA FEMA TRAILERS: ARE THEY SAFE 
                      OR ENVIRONMENTAL TIME BOMBS?

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Bobby Rush 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Rush, Sarbanes, Sutton, 
Stupak, Green, Barrow, Braley, Waxman (ex officio), Whitfield, 
Stearns, Gingrey, Scalise, Latta, and Barton (ex officio).
    Staff present: Michelle Ash, Chief Counsel; Robin 
Appleberry, Counsel; Timothy Robinson, Counsel; Felipe Mendoza, 
Counsel; Will Cusey, Special Assistant; Daniel Hekier, Intern; 
Elizabeth Letter, Special Assistant; Jerry Couri, Minority 
Counsel; Sam Costello, Minority Legislative Analyst; Shannon 
Weinberg, Minority Counsel.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will now come to order. Today's 
subcommittee hearing is on the subject of the public sales of 
Hurricane Katrina/Rita FEMA trailers: are they safe or 
environmental time bombs? And the chairman wants to welcome all 
those who are participants in the hearing. And now the chair 
recognizes himself for 5 minutes for the purposes of an opening 
statement. Again, I want to welcome each one of the witnesses, 
and I want to thank you for appearing before the subcommittee 
today. At this hearing we will discuss the public sale of more 
than 100,000 travel trailers and homes by the General Services 
Administration. For these transactions, the GSA served as the 
sales agent of FEMA.
    And, ladies and gentlemen, if you don't know more than what 
I just said, most of you would probably say, well, that sounds 
good. That is an awfully lot of trailers, and the government is 
selling off a lot of property. Maybe I should run down to the 
courthouse or hop online to take advantage of a deal like that. 
But these are not just any ordinary trailers. They are the very 
same trailers that FEMA purchased and provisioned as emergency 
housing for hundreds of thousands of displaced Gulf Coast 
residents.
    Unbelievably, these are the same trailers that made 
thousands of people ill, some very severely, from exposure to 
formaldehyde gases and vapors. Young children, elderly people 
and those with serious respiratory conditions, ranging from 
asthma to bronchitis, inhaled these vapors over a continuous 
period of time. I don't think I am the only one that is left 
scratching his head at this outcome. My first reaction was to 
fire off a letter to FEMA and GSA asking them a range of 
questions from what steps they had to take before deciding to 
sell the trailers, how did they notify buyers that these 
trailers could be contaminated by excessive formaldehyde and 
whether some newly proposed standards may have resulted in 
lowering formaldehyde exposure.
    And I want to take time to thank GSA and FEMA for promptly 
responding and explaining the courses of action they took 
before making their decision to go forward with the sale of the 
trailers. But let me state for the record that I would have 
liked to have seen the government commit to more testing of 
these trailers before bringing them to sale and to come up with 
some better safeguards than was present on the warning stickers 
and certification. We need to have many more courses of action 
and more firm in our actions and activities to advise the 
public and to protect the public. I genuinely want our 
discussion to shed more light on some of the other options for 
disposing of the surplus trailers that actually came up for 
discussion and what other options that would have kept down 
FEMA's costs and other options that may have come up out of 
other discussions.
    Has it been so long since Hurricanes Katrina and Rita took 
place that we have forgotten the painful lessons that these 
epic disasters taught our nation? It won't be until this coming 
August that we will get to the fifth-year anniversary of those 
tragic years. It is my sincere hope that this hearing will help 
us to review what was learned from that experience so as not to 
repeat some of our failures. And I want to say to those valiant 
and gallant workers, government workers, who continually put 
themselves on the front line as it relates to our nation's 
disasters. I want to commend each and every one of them. And I 
just think we can do a better job and make sure we do finer 
work and we are more diligent and more proactive and open 
ourselves up for more discussion.
    With that, I yield back the balance of my time, and I 
recognize the gentleman from Kentucky, the ranking member of 
the subcommittee, Mr. Whitfield, for 5 minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Mr. Chairman, thank you very much for having 
this hearing today, and we are delighted that representatives 
of FEMA, the GSA, and EPA are with us on this first panel this 
morning. I read an article that the federal government spent 
$2.7 billion to buy these trailers and mobile homes and spent 
an additional $220 million to store them to provide some relief 
for those victims of Katrina. And I think this hearing can be 
quite helpful today because there are so many questions that 
might be beneficial to us to have answered as we experience 
disasters in the future. For example, were there alternatives 
available to provide housing other than buying these trailers 
with formaldehyde in them?
    What options were available by the Administration in trying 
to decide what to do with these trailers? Was it required that 
they be so--there was a Washington Post article that said they 
should have been destroyed, and just how serious was this 
health issue? This committee certainly has an obligation and 
responsibility to protect consumers, and I think even more so 
when the federal government takes an action and people who are 
the victims of Katrina really were not out purchasing a 
product, they were taking what was given to them because they 
had no other alternatives. I did also read an article where CMS 
released a study regarding children, I think 6 to 12, in 
Mississippi, some of who lived in these trailers and some who 
did not, and basically the conclusion was that there was not 
any significant difference in the health of those children. So 
I am hoping that this committee and this panel and the second 
panel can help us address a lot of these issues and have a 
better understanding of it, and hopefully help us to move 
forward in the future to maybe react in a more responsible and 
more efficient way that is better for the victims of these 
kinds of disasters. I yield back the balance of my time.
    [The prepared statement of Mr. Whitfield follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. Thank you. The chair now recognizes the chairman 
of the full committee, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I appreciate 
you calling this hearing to examine the decision to sell the 
American public travel trailers that could have elevated levels 
of formaldehyde. Formaldehyde is a harmful substance. It is a 
dangerous substance. It is a carcinogen, and it can cause 
cancer. We should minimize the exposure by people to it but we 
shouldn't minimize the dangers of the exposure to it. Some of 
us are familiar with these trailers. When I was chairman of the 
Oversight and Government Reform Committee, I called a hearing 
that exposed that dangerous level of formaldehyde in some of 
these trailers, and not just that but the shameful failure of 
FEMA to protect the families that were living in these 
trailers.
    Our investigation revealed that after hearing reports of 
high formaldehyde levels, FEMA field staff called Washington 
and said you have got to test these trailers so that the 
dangerous trailers could be identified and the families that 
were living in them could be protected. But FEMA headquarters 
ignored the dangers from the formaldehyde. Their response was 
that if FEMA tested the trailers and found hazards FEMA would 
``own the problem.'' That is what they said, own the problem, 
and therefore they did nothing.
    The ultimate result was a serious health risk for families 
displaced by Hurricane Katrina and a costly bill for taxpayers. 
After our hearings exposed FEMA's conduct, the agency was 
finally forced to act. FEMA paid $2 billion for trailers that 
have now been sold for pennies on the dollar. I fully support 
Chairman Rush's effort to understand the story behind the sale 
of these trailers to the public. I hope today's hearing will 
reveal that the Obama Administration has learned from the 
mistakes of the previous Administration. If these trailers are 
going to be sold, it is essential that there are ample 
safeguards to prevent any risk to the people who end up buying 
these trailers.
    Today's hearing will also shine a light on the long-time 
deficiencies of the Toxic Substances Control Act. This is an 
outdated statute that is badly in need of reform, and I know 
this subcommittee is going to be looking at that issue later 
this year. As we will hear today, if EPA had the clear and 
comprehensive authority that it needs to access and restrict 
dangerous chemicals, it could have taken action on formaldehyde 
years ago, and if EPA had set a standard for formaldehyde 
emissions from plywood and composite wood products we might not 
have had the problem in the first place. So EPA did not act to 
set a standard for formaldehyde. FEMA did not act to test the 
trailers to see if the formaldehyde levels were high enough 
that they were causing a threat to public health.
    The government has got to do its job, not ignore the 
problems for fear that we will own them because our job is to 
protect the American people. The victims of Hurricane Katrina 
had no choice. They were given these trailers in which to live. 
They were grateful to have a place to live temporarily, but we 
should never have subjected them to this exposure and we should 
never minimize the harm we subjected them to. I believe that we 
will find that there was harm to people and that is a harm that 
could have been averted, and we want to make sure that it 
doesn't occur in the future. Thank you, Mr. Chairman.
    Mr. Rush. The chairman thanks the chairman of the full 
committee, Mr. Waxman. The chair now recognizes for 2 minutes, 
Mr. Latta, the gentleman from Ohio.
    Mr. Latta. Thank you very much, Mr. Chairman, Mr. 
Whitfield, I appreciate this being my first day on the 
subcommittee. I look forward to working with you all in the 
future.
    Mr. Rush. Will you yield just one second? I really want to 
take this opportunity to welcome you to this subcommittee. We 
are a good subcommittee. We work very well together, and we 
look forward to working very closely with you.
    Mr. Latta. Thank you very much, Mr. Chairman. I appreciate 
that. And not to reiterate everything that has already been 
said, but I look forward to the testimony today on purchase of 
the trailers and also the subsequent sale of these trailers. 
And with that, Mr. Chairman, I yield back.
    Mr. Rush. The chair thanks the gentleman. The chair now 
recognizes Mr. Barrow for 2 minutes.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Thank you, Mr. Chairman. In the aftermath of 
Hurricanes Katrina and Rita, many of the victims trusted the 
government to provide temporary housing that was safe to live 
in. We have since found out that many of these citizens were 
exposed to extremely high levels of formaldehyde in these 
trailers. As a result of that exposure, hundreds of individuals 
continue to suffer negative health effects ranging from 
respiratory irritation to cancer. I have introduced legislation 
in this Congress, H.R. 1661, the Travel Trailer Residents 
Health Registry Act, that will begin the process of righting 
this wrong.
    My bill will establish and maintain a health registry for 
folks who are exposed to formaldehyde in one of these 
government-provided trailers. It will provide health 
examinations, consultations, and mental health counseling free 
of charge to individuals facing illness from FEMA trailers and 
will conduct a study of the long-term health effects of 
exposure to formaldehyde in the trailers. The purpose of 
today's hearing is to look at the public sale of Hurricane 
Katrina and Rita FEMA trailers.
    Once again, the government will be providing temporary 
housing to yet another generation of occupants. Knowing what we 
already know about the effects have had on those who already 
lived in them, I don't see how we can justify the risk of 
further government-sanctioned exposure. We have not yet 
accepted responsibility for the harm done to those who have 
been injured by substandard temporary housing. Until we do, I 
am afraid these sales may only add to the casualty lists. Thank 
you, Mr. Chairman. I yield back.
    Mr. Rush. The chair recognizes the gentleman from Georgia, 
Dr. Gingrey, for 2 minutes.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, I want to thank you for calling 
today's hearing on the sale of the FEMA trailers used in the 
recovery efforts of Hurricane Katrina and Rita. With a number 
of concerns raised with formaldehyde exposure in the Gulf Coast 
region resulting from the use of these trailers, I believe it 
is important that this subcommittee take a closer look at the 
issue, and of course that is what we are doing. As required by 
law, the federal government is required to sell or dispose of 
equipment that is no longer being used. Accordingly, the GSA, 
General Services Administration, helped facilitate the sale of 
over 102,000 trailers through an auction that was conducted in 
January, this year, that brought in approximately $139 million.
    Overall, as the chairman said just a minute ago in his 
remarks, that is pennies on the dollar, I think a nickel on the 
dollar of what we paid for these trailers. Although this sale 
of government equipment follows prescribed procedures, it also 
comes with additional concerns as expressed by my friend from 
Georgia, Mr. Barrow. Mr. Chairman, I am pleased that FEMA 
placed a clearly visible decal on the door or window of each of 
these trailers that simply states not to be used for a house. 
And, additionally, I appreciate that the purchasers are 
required to sign a buyer's certificate denoting that the 
trailers cannot be used for housing or resold to be used as 
housing.
    Although the buyers of these trailers are being required to 
sign these certificates, there will always be, and we know 
this, bad actors in the system that will resell these trailers 
for housing purposes. Based on the levels of formaldehyde that 
potentially exists in the trailers, we need to do our best to 
prevent them from being resold for permanent type housing, day 
in and day out kind of living. Mr. Chairman, I am glad that we 
are holding the hearing today. I wish we could also be hearing 
some testimony--I notice that HUD is not on either panel. HUD 
is the only federal agency that regulates the use of 
formaldehyde. I believe the Department of Housing and Urban 
Development's input and testimony on this matter would be 
beneficial to the subcommittee, and as we move forward on this 
issue, I hope that we will seek their input.
    The existence of formaldehyde in FEMA trailers is something 
that has already been scrutinized by a number of congressional 
committees and now the public sale of these same trailers 
allows us to re-examine this important issue. I look forward to 
hearing the testimony from today's panels, the first set and 
second, and asking some pertinent questions and getting some 
good answers. Mr. Chairman, thank you for holding the hearing, 
and I yield back the balance of my time.
    Mr. Rush. The chair now recognizes the gentleman from Iowa, 
Mr. Braley, for 2 minutes.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Mr. Chairman. Chairman Waxman 
mentioned the July 19, 2007, hearing of the Oversight and 
Government Reform Committee, which I served on at that time, 
and as a member of that committee, I hear testimony from 
displaced Gulf Coast hurricane victims who testified that the 
trailers provided by FEMA had high levels of formaldehyde, 
which caused them to experience nosebleeds, watery eyes, 
respiratory problems, and flu-like symptoms. They also 
testified that their adverse health effects were common for 
families living in FEMA-provided trailers in the Gulf Coast. At 
the time of that hearing, I had no idea how important that 
would be to residents of my district in the northeast part of 
Iowa because 1 year later in the spring of 2008 my district was 
hit by the most powerful tornado in the United States followed 
10 days later by the worse flooding in our state's history.
    As part of the relief effort, FEMA issued trailers to Iowa 
flood victims. In July of 2008, and this is a photograph of 
some of those remaining trailers, which are currently stored 
about 10 miles from where I live in the small town of Dike, 
Iowa. As part of that relief, it was discovered in July of 2008 
that more than 100 FEMA-provided trailers in Iowa were infected 
with mold. It is very disturbing that the mold in those 
trailers was not discovered before they were delivered to 
disaster victims at their designated locations, and it 
concerned the Iowans living in those trailers for a period of 
time before the mold was even discovered.
    In October of 2008, a Cedar Rapids, Iowa television 
station, KGAN, reported that tests of 20 trailers issued by 
FEMA to flood victims in Iowa found they all exceeded FEMA's 
own standards for safe levels of formaldehyde. At the time, 
more than 60 inhabited FEMA trailers were located in my 
district, and this was after we had held the hearing in 
Oversight and Government Reform. With such a dismal record of 
providing housing units with high levels of formaldehyde and 
mold, FEMA should be going above and beyond expectations to 
prove and ensure that these trailers are safe. It is disturbing 
to me personally and unacceptable that temporary housing 
provided by the agency responsible for helping people in times 
of emergency would make them ill.
    It is equally disturbing that formaldehyde emissions from 
composite wood products are not currently regulated by the 
federal government. In November of 2007, a federal court order 
suspended all sales of FEMA trailers until January 2, 2010. 
When that court order expired, FEMA sold about 93,000 travel 
trailers and 9,300 mobile homes to both purchasers. And despite 
the warnings that my colleague from Georgia has mentioned, I 
remain concerned that the safety of these units will not be a 
subject of further scrutiny, and I am not sure the government 
should be selling trailers to the public that they have 
determined to pose risks to human health.
    Last month we were supposed to mark up H.R. 4805, the 
Formaldehyde Standards and Composite Wood Products Act in this 
subcommittee, but it was pulled from the schedule at the last 
minute. I was disappointed because that bill would be a good 
step in the right direction to lower the adverse effects of 
formaldehyde on human health. As we continue to address the 
issue of formaldehyde, we should be considering not whether 
that legislation goes too far but rather we should consider 
whether it goes far enough in protecting human health because 
in a hearing last month the consensus among the witnesses was 
that the current standard for formaldehyde emissions for 
manufactured homes is weak and must be updated.
    It is not only important to the impact of hurricane victims 
in the Gulf Coast as well as the flooding victims in Iowa and 
other parts of the Midwest. It is important for the people of 
this country as we move forward. And so I thank you again, Mr. 
Chairman, for holding this important hearing today, and I yield 
back.
    Mr. Rush. The chair recognizes the gentleman from 
Louisiana, Mr. Scalise, for 2 minutes.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Chairman Rush, and Mr. Whitfield 
for having this important hearing examining the sale of FEMA 
trailers. I want to acknowledge some of our panelists who are 
here today from Louisiana. First, Dr. Corey Hebert, a 
pediatrician in New Orleans who serves as an assistant 
professor at Tulane Medical School and is chief medical officer 
at the Louisiana Recover School District. Dr. Hebert has 
focused much needed attention on the effects of post-traumatic 
stress disorder as it relates to Hurricane Katrina's effects on 
people in our region, as well as on the potential hazards of 
formaldehyde and FEMA-issued trailers. We also have Gabe 
Chasnoff, the director and producer of Renaissance Village. Mr. 
Chasnoff's documentary showed us life in a FEMA trailer camp 
and the issues faced by those displaced by Hurricane Katrina.
    Dr. Hebert and Mr. Chasnoff, it is good to have people from 
Louisiana here testifying before our committee, and I thank you 
for the work you do and what you are also doing for our 
recovery. Mr. Chairman, those of us in South Louisiana are 
unfortunately all too familiar with FEMA trailers and the 
problems associated with them. As a result of Hurricanes 
Katrina and Rita our state saw hundreds of thousands of home 
destroyed and people displaced. We also had over 200,000 mobile 
homes, travel trailers, and other temporary housing units 
shipped to our region. While these temporary units did help 
meet the critical needs of housing following the 2005 
hurricanes and provided many residents with short-term housing 
options as they recovered from the storms, only later did we 
find out about the health issues these trailers have caused.
    FEMA originally spent approximately $2.7 billion on 
temporary housing units only to have some of them go unused 
because there was a surplus or because regulations prevented 
them from being installed in certain areas. In 2006, we learned 
that some of these trailers contained formaldehyde and had 
exposed people to health risks associated with this chemical. 
These revelations only added insult to injury for the hundreds 
of thousands of people who had survived the storms. At the end 
of 2007, the GAO found that ineffective oversight led to FEMA 
paying an estimated $30 million in wasteful and improper or 
potentially fraudulent payments for maintenance on trailers, 
and now the storage of excess trailers is costing the taxpayers 
hundreds of millions of dollars.
    Mr. Chairman, I understand the uniqueness of what we faced 
after Katrina. Our nation had never faced a disaster of that 
scope or complex. The federal government had never been faced 
with providing housing for that many people, and FEMA did take 
steps to address these challenges. But FEMA trailers provide 
clear examples of the errors that were made after Hurricanes 
Katrina and Rita and how taxpayer dollars were wasted. It is 
for that reason that I have introduced and co-sponsored 
legislation to improve disaster recovery and promote 
responsible government spending for disasters.
    Mr. Chairman, given the challenges we face, the issue of 
FEMA trailers is one that we take very seriously in South 
Louisiana. That is why I am pleased to see that our 
subcommittee is focusing on these issues. Thank you, and I 
yield back.
    Mr. Rush. The chair recognizes the gentleman from Maryland, 
Mr. Sarbanes, for 2 minutes.

OPENING STATEMENT OF HON. JOHN P. SARBANES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Sarbanes. Thank you, Mr. Chairman, for holding the 
hearing. My understanding is that the only agency that has 
standards with respect to formaldehyde emissions is HUD but 
that standard is itself very weak and needs to be strengthened 
and the overall regulation of formaldehyde has to be improved, 
but then even within that weak standard that HUD sets there is 
a giant loophole with respect to the travel trailers because 
they don't fit the definition that would be subject to the HUD 
standards with respect to manufactured housing so the travel 
trailers, which were used as what was anticipated to be 
temporary housing but became more permanent for many people had 
these terrible health effects.
    And Mr. Braley and I and others participated in hearings on 
Oversight and Government Reform that at this, so I appreciate 
your bringing attention to this in terms of how the travel 
trailers that were used at that time are now being disposed of 
but also to get us to think going forward how we better 
regulate the use of those kinds of trailers, and address 
overall the formaldehyde emissions, so thank you for holding a 
hearing. I look forward to hearing from the witnesses, and I 
yield back.
    Mr. Rush. The chair now recognizes the ranking member of 
the full committee, my friend from Texas, Mr. Barton, is 
recognized for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. I notice you have 
moved your vehicle. You have got a different parking place now, 
so it is in running condition.
    Mr. Rush. You can move it now. It will move.
    Mr. Barton. Have you tested it for formaldehyde, Mr. 
Chairman?
    Mr. Rush. Yes, it has. It has been tested for it. Thank 
you.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Our chairman has a sports car that is--it is 
not an antique but it is older than most of the vehicles and it 
would be a great auction item because if it is in running 
condition. Anyway, thank you, Mr. Chairman, for holding this 
hearing. We have all heard the joke about would you buy a used 
car from this person. Well, the question is would you buy a 
used trailer from Uncle Sam? That is the purpose of today's 
hearing. With all good intentions, the federal government after 
Katrina and Rita purchased over 120,000 trailers for people to 
temporarily live in the aftermath of those two hurricanes. I 
think it is good public policy when the need passes to auction 
them off into the private marketplace, so I don't have a basic 
problem with what has been attempted to have been done.
    Unfortunately, we have found out in the climate in the Gulf 
Coast, some of these trailers if left unoccupied and closed up, 
the humidity and the heat concentration inside the trailer 
apparently releases formaldehyde in concentrations that can be 
unhealthy. There is a bigger question and the chairman of the 
subcommittee is considering legislation on what to do about the 
formaldehyde in the manufactured housing, but the purpose of 
this hearing is to determine exactly what FEMA and other 
environmental agencies knew and when they knew it, and, what, 
if anything, can be done in terms of the sales of these 
trailers.
    I do not represent Louisiana, obviously, or Mississippi. I 
do represent Texas, and part of my district was hit by 
Hurricane Rita, so this is something that is of more than 
passing interest to me. I hope we have a productive hearing, 
Mr. Chairman, and I hope that we all engage in it in a positive 
way to get real answers so that we can help determine what the 
appropriate solution is to this problem. With that, Mr. 
Chairman, I yield back.
    [The prepared statement of Mr. Barton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The chairman thanks the gentleman. The chair now 
recognizes the gentle lady from Ohio, Ms. Sutton, for 2 
minutes.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Rush, for holding today's 
important hearing on the public sales of Hurricane Katrina and 
Rita FEMA trailers. Our hearts go out to the families who were 
displaced by Hurricane Katrina and Rita nearly 5 years ago. 
After losing their homes, their personal belongings, and, 
unfortunately, loved ones, affected citizens were moved into 
trailers purchased by FEMA. To add insult to injury, some 
people began experiencing breathing difficulties, persistent 
headaches, and nosebleeds caused by high levels of 
formaldehyde. Formaldehyde, considered to be a human 
carcinogen. This shocked and horrified the public, and FEMA 
began relocating residents. Government agencies suggested that 
families who live in FEMA-supplied travel trailers and mobile 
homes should spend as much time outdoors in the fresh air as 
possible.
    FEMA then worked with GSA to sell large lots of the 
trailers, the very trailers residents were advised to stop 
living in or to stay out of as much as possible. This chain of 
events is alarming, and we must ensure that the correct lessons 
are learned so that this troubling piece of American history is 
never repeated. I am interested to hear from today's witnesses 
how putting a disclaimer regarding the unsafe levels of 
formaldehyde complies with the GSA regulations. GSA is 
prohibited from selling property that is dangerous to public 
health or safety without first rendering such property 
innocuous or providing for adequate safeguards as part of the 
exchange or sale.
    In addition, I am proud to co-sponsor the formaldehyde 
standards for composite wood production introduced by 
Representative Matsui. That bill will protect the health of 
American families from high uses of formaldehyde and common 
household products like flooring and paneling regardless of 
where it is made. And I have introduced the Board of 
Manufacturers Legal Accountability Act of 2010 to protect 
American consumers and businesses from defective products 
manufactured abroad. The American people deserve and demand 
that the products they are sold or in this case of products 
purchased by their government as part of a response to a 
national disaster are safe for themselves and their families. 
Thank you.
    Mr. Rush. The chair recognizes the gentleman from Florida, 
Mr. Stearns, for 2 minutes.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Mr. Chairman, thank you for holding this 
important hearing. FEMA was tasked, as we all know, with 
providing emergency housing in the form of mobile homes and 
travel trailers to almost 150,000 residents of Mississippi, 
Alabama, and, of course, Louisiana when the region was 
devastated by back-to-back hurricanes, Katrina and Rita, in the 
summer of 2005. You know, 2006 heard claims from some of the 
occupants of the travel trailers about poor indoor air quality 
and concerned about elevated formaldehyde levels. But then as a 
result FEMA asked the Agency for Toxic Substance and Disease 
Registry to evaluate. They just asked them to evaluate the air 
quality and they took some samples of the unoccupied trailers 
that FEMA were still storing and subsequently asked the Center 
for Disease Control to study the air quality for the occupied 
units.
    Their study did reveal high levels of formaldehyde while 
the CDC study revealed that the emission rates in occupied 
trailers were much lower. I think that is important to also 
bring out. Our subcommittee should note that according to the 
ATSDR there is a correlation between temperature and 
formaldehyde levels with lower temperatures and proper 
ventilation resulting in lower concentrations and higher 
temperatures and no ventilation resulting in higher levels. So 
it is clear to me that this is what happened.
    Nonetheless, the sale of the FEMA trailers was suspended in 
2007 to rightfully ensure the protection of consumers, and I 
think that is justified and I am glad we are doing that. 
However, this federal court order on the sale of FEMA travel 
trailers expires the 1st of January of this year. It is, 
therefore, prudent of us to examine today, Mr. Chairman, 
whether the sale of these trailers is truly safe. If they pose 
a real health risk to consumers or perhaps if someone buys this 
travel trailer, can he or she clean it up on their own. A 
travel trailer can be sold at a discount and possibly not 
create a problem. So this is a timely hearing, Mr. Chairman, 
and I appreciate your leadership in bringing it forward. Thank 
you.
    Mr. Rush. The chair now recognizes the gentleman from 
Texas, Mr. Green, for 2 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
on the sale of the FEMA trailers that received so much public 
attention and scrutiny when it began appearing in the aftermath 
of Hurricanes Katrina and Rita. I know this hearing is about 
the sale of the trailers, but I also would like to raise the 
direct problems that the high rise of formaldehyde in trailers 
and mobile homes caused in our district in the area devastated 
by Hurricane Ike. FEMA spent nearly $3 billion adding trailers 
and mobile homes to their inventory in 2005 after these two 
hurricanes, but less than a year later the reports of excess 
levels of formaldehyde began causing serious concerns and FEMA 
stopped distributing the trailers. One of the lasting impacts 
of oversight on FEMA's part that surfaced in the aftermath of 
Hurricane Ike, which hit the Texas upper Gulf Coast in 
September, 2008 and devastated the district I represent, was 
that FEMA was not able to provide temporary mobile housing in a 
timely manner after the hurricane.
    It was over a month after Ike hit that trailers started 
arriving for Ike victims, and it took significant involvement 
from local officials in the states to ensure these trailers and 
mobile homes met safe formaldehyde levels. I would like to make 
this last point. While our district has significantly 
recovered, there are still folks living in trailers in some of 
the hardest hit areas like Galveston, Texas along the coast. 
These people need to have options to get out of those trailers 
before the next hurricane season starts, June 1, and I hope 
that FEMA is working with them to find alternatives.
    Mr. Chairman, the specific issue at hand, and I am glad we 
are looking at the issue of the sale of these trailers procured 
in 2005, the potential for high levels of formaldehyde, mold, 
mildew, and other health hazards is too great, and I am 
concerned FEMA and GSA move forward too quickly without proper 
assurances these trailers would not be put to uses that 
endanger the public. I look forward to hearing from our 
witnesses today on what precautions were taken and what 
assurances they can provide that these trailers will not be 
used in such ways that will jeopardize human health including 
human habitation. It is one thing to use a construction 
trailer, but it is one thing to spend a night in a trailer that 
has problems with formaldehyde, mold, and mildew. And again, 
Mr. Chairman, I thank you for holding the hearing, and I yield 
back my time.
    Mr. Rush. The chair thanks all the members for their 
opening statements. Now we will move to the regular order and 
here we will invite our panelists to give opening statements. 
But before they give their opening statements, let me introduce 
them and also swear them in. On my left is Mr. David Garratt. 
Mr. Garratt is the Associate Administrator for FEMA Mission 
Support Bureau, Department of Homeland Security. Seated next to 
Mr. Garratt is Mr. James J. Jones, the Deputy Assistant 
Administrator, Office of Prevention, Pesticides, and Toxic 
Substances for the Environmental Protection Agency. And next to 
Mr. Jones is Mr. Steven Kempf. Mr. Kempf is the Acting 
Commissioner of the Federal Acquisition Service for the General 
Services Administration. Again, I want to thank each and every 
one of your gentlemen for appearing before this subcommittee. 
And it is the practice of this subcommittee to swear in 
witnesses, so I would ask if you would please stand and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Rush. Let the record reflect that all the witnesses 
have responded in the affirmative. And let me recognize now for 
opening statement for 5 minutes Mr. Garratt, and then we will 
proceed in that order.

   TESTIMONY OF DAVID GARRATT, ASSOCIATE ADMINISTRATOR, FEMA 
MISSION SUPPORT BUREAU, DEPARTMENT OF HOMELAND SECURITY; JAMES 
J. JONES, DEPUTY ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, 
PESTICIDES, AND TOXIC SUBSTANCES, U.S. ENVIRONMENTAL PROTECTION 
AGENCY; STEVEN KEMPF, ACTING COMMISSIONER, FEDERAL ACQUISITION 
            SERVICE, GENERAL SERVICES ADMINISTRATION

                   TESTIMONY OF DAVID GARRATT

    Mr. Garratt. Thank you, and, good morning, Chairman Rush, 
Ranking Member Whitfield, and other distinguished members of 
the subcommittee. My name is David Garratt. I am the Associate 
Administrator for Mission Support within the Federal Emergency 
Management Agency within the Department of Homeland Security. 
On behalf of the agency and the department, I appreciate the 
opportunity to discus show FEMA is producing, employing, and 
disposing of temporary housing units. First, it may be helpful 
to establish some common frames in terms of reference and 
provide a little context. Within the FEMA vernacular, a 
temporary housing unit is a manufactured home, recreational 
vehicle, or other readily fabricated dwelling. These dwellings 
include mobile homes, park models, travel trailers, and various 
types of alternative housing. While all temporary housing units 
are distinguished by their ability to be delivered, installed, 
and inhabited within a relatively short time frame, not all 
temporary housing units are designed to be inhabited for 
lengthy periods of time.
    FEMA provides temporary housing units under our Individual 
Assistance program which such assistance has been specifically 
requested by a governor and authorized by the President as part 
of a major disaster or emergency declaration. Whenever 
Individual Assistance is authorized, the program is 100 percent 
federally funded. Generally, FEMA provides temporary housing 
units when sufficient fair market rental units are not 
available within an affected area. Temporary housing units can 
be provided in two types of settings, on private property or in 
community sites.
    Installing temporary housing units on private property is 
preferred. It keeps disaster survivors on their own property, 
providing proximity to the damaged homes that they wish to 
repair. It also allows adults to remain near their places of 
employment and children near their schools. Further, it helps 
physically and financially stabilize traumatized neighborhoods 
and contributes to faster recovery. However, because most 
private sites are relatively small, they often cannot 
accommodate mobile homes, which are designed for long-term 
habitation. FEMA will only install smaller travel trailers on 
private sites if the damaged structure can be repaired to the 
point of re-habitation within six months.
    Community sites are employed when private site installation 
is not available to disaster survivors, such as when large 
numbers of apartment renters are displaced and insufficient 
fair market rental resources are available. In such cases, FEMA 
must obtain access to land capable of supporting multiple 
mobile homes and/or park models or other forms of alternative 
temporary housing. If existing sites are not available, FEMA 
may build a community site from scratch, to include providing 
the supporting utility infrastructure. FEMA will not install 
travel trailers in community sites.
    Prior to and during the response to Hurricane Katrina, FEMA 
procured temporary housing units that were manufactured to 
prevailing industry standards. While mobile home instruction 
was and is regulated by the Department of Housing and Urban 
Development, recreational vehicles, such as park models and 
travel trailers, are not. On February 14, 2008, the Centers for 
Disease Control issued its interim report that suggested many 
of the Katrina-era purchased units tested possessed higher than 
typical indoor background formaldehyde levels. Though no 
federal guidelines existed for residential air quality levels, 
FEMA invoked construction specifications for all new forms or 
manufactured housing that dramatically reduced formaldehyde 
levels to well below standard commercially produced units. 
FEMA's new requirements were rigorous, so rigorous, in fact, 
that manufacturers were uncertain whether these standards could 
be met. Through our persistence, we successfully obtained units 
built to these exacting and unprecedented standards.
    All temporary housing units currently being purchased by 
FEMA must meet extremely rigorous air quality specifications. 
FEMA requires that every unit must test below 0.016 per 
million, which is lower than the residential formaldehyde 
emission levels established by any of the 50 states. Further, 
FEMA requires that any recreational vehicles that it purchases 
contain air ventilation systems that are comparable to a mobile 
home, further contributing to a sustained reduction in 
formaldehyde levels. These new FEMA units continue to surpass 
any commercially available manufactured housing unit in air 
quality.
    Although all the temporary housing units that FEMA is now 
commissioning for production and providing to disaster 
survivors meets FEMA's stringent air quality specifications, 
FEMA has also been storing at multiple sites across the country 
and at considerable costs tens of thousands of used legacy 
units left over from the Katrina era. These legacy units 
include mobile homes, park models, and travel trailers. FEMA 
strives to be a fully accountable steward of government 
resources and ensure that taxpayer funds are used responsibly. 
Accordingly, following the removal of court-ordered 
restrictions on their disposition, FEMA began working to 
responsibly dispose of these units through the General Services 
Administration sales program.
    FEMA's ability to dispose of these units is dictated by the 
Stafford Act, which authorizes FEMA to dispose of units in only 
one of two ways, either by sale to anyone, including the 
occupant, or by transfer, donation, or sale to a jurisdiction 
or voluntary organization. However, the latter disposition 
option can be employed only when the unit will be used to 
provide housing to disaster survivors. FEMA and GSA implemented 
rigorous measures to ensure that these units would not be used 
as housing. As my GSA colleague will discuss, FEMA and GSA 
placed restrictions on the use of the travel trailers as 
housing and required that all buyers fully convey those usage 
restrictions to subsequent buyers or recipients.
    Buyers must certify that they understand that there may be 
formaldehyde emissions and that travel trailers are commercial 
recreational vehicles and are not intended to be used as 
housing, and that subsequent owners must continue to similarly 
inform subsequent buyers for the life of the unit. This 
certification is a binding legal document. Finally, no aspect 
of recovery is more critical to the timely and sustainable 
revitalization of a disaster-impacted community than the return 
of its citizens and workforce, and no aspect of recovery is 
more critical to supporting the return than the availability of 
housing, both permanent and temporary.
    States have made it unequivocally clear that they want and 
expect travel trailers to remain a part of our inventory 
because in many cases a travel trailer is the only unit that 
will fit on suburban private property. We have heeded that call 
by partnering with the industry that manufactures these units, 
leading the design and production of travel trailers that 
achieve greatly improved air quality levels. We will continue 
to work with our partners in and out of government to improve 
temporary housing capabilities. Thank you. I look forward to 
your questions.
    [The prepared statement of Mr. Garratt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The chairman recognizes Mr. Jones for 5 minutes.

                  TESTIMONY OF JAMES J. JONES

    Mr. Jones. Chairman Rush, Ranking Member Whitfield, and 
members of the subcommittee, thank you for the opportunity to 
speak with you today regarding EPA's efforts on formaldehyde. 
Formaldehyde is a widely-used chemical and may be found both 
indoors and outdoors. It is used in building materials and 
household products and can also be produced as a by-product of 
combustion. In homes, the most significant current sources of 
formaldehyde are likely to be pressed wood products using 
adhesives that contain urea-formaldehyde resins.
    Inhalation of formaldehyde can cause irritation of the 
eyes, nose, throat, and skin, as well as inflammation and 
damage to the upper respiratory tract, depending on both the 
level and length of exposure. Additionally, there is some new 
evidence that formaldehyde exposures may impact pulmonary 
function and increase respiratory symptoms, asthma, and 
allergic sensitization in children. There is evidence that some 
people can develop sensitivity to formaldehyde. In 2005, the 
International Agency for Research on Cancer, IARC, concluded 
that there is sufficient evidence in humans and sufficient 
evidence in experimental animals for the carcinogenicity of 
formaldehyde.
    EPA is currently engaged in a reassessment of the potential 
cancer and non-cancer risks of formaldehyde that will be 
entered into EPA's Integrated Risk Information System or IRIS 
program. As part of the IRIS reassessment process, EPA will be 
reexamining its conclusions regarding the cancer and non-cancer 
health effects of inhalation of formaldehyde. At this moment, 
EPA is conducting an interagency science consultation on the 
draft formaldehyde assessment. We anticipate releasing the 
draft formaldehyde assessment for independent external peer 
review and public review and comment in the near future. The 
independent peer review will be conducted by an expert 
scientific panel that has been convened by the National Academy 
of Sciences.
    The NAS peer review report is expected to be provided to 
EPA in January or February of 2011. The recent focus on 
formaldehyde in the Office of Chemical Safety and Pollution 
Prevention result in part from a March 2008 petition from 25 
organizations and approximately 5,000 individuals to adopt the 
California state regulation regarding emissions of formaldehyde 
from three types of composite wood products. The petitioners 
asked EPA to exercise its authority under TSCA section 6 to 
adopt and apply nationally the California formaldehyde 
emissions regulations for these composite wood products.
    In response, EPA announced on June 24, 2008, EPA's plan to 
issue an Advance Notice of Proposed Rulemaking to initiate a 
proceeding to assist us in obtaining a better understanding of 
the available control technologies and approaches, industry 
practices, and the implementation of California's regulation. 
The ANPR was issued on December 3, 2008, and describes EPA's 
initial steps in that investigation. We currently anticipate 
being able to make a determination on pursuing regulatory 
actions in 2011. If EPS proposes new regulations at that time, 
a final rule could be anticipated 1 to 3 years later. Restoring 
confidence in our chemical management system is a top priority 
for EPA and an environmental priority for the Obama 
Administration. The Administration's principles for how TSCA 
should be revised and modernized call for stronger and clearer 
authority for EPA to collect and act upon critical data 
regarding chemical risks.
    Under a reformed TSCA, EPA should have the necessary 
authority and tools, such as data call-in, to quickly and 
efficiently require testing or obtain other information from 
manufacturers that is relevant to determining the safety of 
chemicals. EPA should have clear authority to establish safety 
standards that are based on scientific risk assessment and to 
take risk management actions when chemicals do not meet the 
safety standard. The recent introduction of TSCA reform 
legislation in the Senate and release of a discussion draft in 
the House are major steps forward in this effort to reform 
TSCA. We look forward to working with Congress and the 
subcommittee to reform TSCA in the near future. Thank you for 
the opportunity to present EPA's views, and I am happy to 
answer any questions the subcommittee may have.
    [The prepared statement of Mr. Jones follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. Thank you very much. The chair recognizes Mr. 
Kempf for 5 minutes.

                   TESTIMONY OF STEVEN KEMPF

    Mr. Kempf. Good morning, Chairman Rush, Ranking Member 
Whitfield, and members of the subcommittee. Thank you for the 
opportunity to participate in today's hearing. My name is 
Steven Kempf. I am the Acting Commissioner of the Federal 
Acquisition Service within the General Services Administration. 
GSA's mission is to use expertise to provide innovative 
solutions for our customers in support of their missions, and 
by doing so fostering an effective, sustainable, and 
transparent government for the American people. GSA is 
comprised of two services, the public building service, which 
provides workplaces by constructing, managing, and preserving 
government buildings, and by leasing and managing commercial 
real estate. The Federal Acquisition Service or FAS offers 
professional services, equipment, supplies, telecommunications, 
fleet, travel services, purchase cards, and information 
technology to all government agencies.
    Specific to this hearing, FAS manages the federal program 
for the disposal of personal property. This is operated by the 
Office of Personal Property Management, part of our Office of 
General Supplies and Services business portfolio. There is a 
process by which GSA manages disposal or reuse of personal 
property. Our first priority is to facilitate the transfer of 
one agency's excess property to another federal agency. Our 
second priority is the donation of surplus property to state 
and local government agencies and various other eligible non-
profit organizations.
    Any remaining property is then offered for sale to the 
general public. In support of utilization, federal transfers, 
and donations, GSA is a mandatory source, that is, statute and 
regulation require agencies to report their excess property to 
GSA for screening for transfer and donation. For sales 
services, GSA is just one of several agencies approved and 
authorized as sale centers. FAS' sales program is the most 
comprehensive as it is the only sales center approved to 
support any agency nationwide for any commodity and using any 
method of sale. Sometimes agencies own property which they have 
determined must be replaced. FAS facilities this replacement 
under the Exchange Sale Authority.
    In this case, proceeds from the sale are returned to the 
owning agency to help offset the cost of the purchase of 
replacement property. In working with FEMA, some travel 
trailers and other models of temporary housing units, park 
models, and manufactured housing were made available for 
transfer and donation. Others were offered for sale under the 
Exchange Sale Authority. At GSA most of the property we offer 
for competitive sales to the general public is sold through GSA 
auctions or internal auction sites. All GSA sales, whether on 
the internet or live, are also listed on govsales.gov, the 
federal asset sales central portal for all government sales.
    GSA acted as the sales agent for FEMA while they retained 
physical custody and ownership of these units. We conducted 
these sales through GSA auctions selling travel trailers, 
mobile home, and park models. We sold them as single units or 
in large multiple lots, ranging from as few as 10 units to over 
22,000 units in one lot. GSA provides full and complete 
descriptions, including any known deficiencies if such 
information is provided by the owning agency. With respect to 
these trailers, there are no specific special requirements for 
sale of temporary housing units. Federal regulations address 
special requirements for disposal processing of specified 
categories of items requiring special handling. FEMA did not 
identify the temporary housing units as falling under any of 
these identified categories such as hazardous materials, a 
munitions item list, or an item containing asbestos. Therefore, 
no special requirements were applicable to these sales. GSA 
agreed with FEMA's conclusion.
    The first temporary housing unit sales in significant 
quantities post-Katrina began in 2006. After the health 
concerns regarding the questionable formaldehyde levels were 
made known to GSA, FAS developed a certification statement for 
purchasers in coordination with FEMA, which included notices of 
the potential formaldehyde and later added restrictions on the 
use of the units for housing. The certification statement and 
restriction for purchasers of travel trailers is a binding 
document and is made in accordance with and subject to criminal 
penalties in Title 18, Section 1001 of the U.S. Code, Crime and 
Criminal Procedures. Prospective bidders were provided a link 
in each sales listing where they were required to read and to 
certify acceptance before being able to submit a bid.
    On March 2 of this year, GSA also sent an e-mail to buyers 
of travel trailers reminding them of that requirement of the 
certification. GSA also referred all known violations to GSA's 
Office of Inspector General for investigation. We recently 
completed the sales of the remaining inventory held by FEMA. At 
the end of January, the majority of the remaining units, a 
total of 101,802 units, were sold in 11 lots in GSA auctions. 
For the most part, all lots have been paid in full with removal 
process well underway. There were 3 lots where the successful 
bidder defaulted on the contract. One of those lots was 
successfully re-offered for sale. One must again be re-offered, 
and finally FEMA has elected not to offer the units at one of 
the remaining sites. Instead, FEMA has determined that they are 
excess property and they were offered for transfer to other 
federal agencies or donation to state and local organizations.
    Many of those units have now been transferred or donated. 
Throughout this process, a total of 4,666 units have been 
transferred to other agencies, and another 4,070 have been 
donated to eligible organizations. I want to thank the 
committee for this opportunity to speak to the honorable 
members, and I am happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Kempf follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The chair thanks the gentleman. I want to begin 
by asking Mr. Kempf, in your statement you refer to purchases 
that are down from the original purchases and that they were 
under a contract obligation. I think Mr. Garratt indicated they 
were under a contract obligation that if they sold these 
trailer homes to any other person then they could be 
prosecuted. They would be in violation of the contract. Is that 
correct? Did I understand you correct?
    Mr. Garratt. I did say it was a binding, legal contract, 
yes, sir.
    Mr. Rush. And what are the prohibitions under that contract 
for the purchaser?
    Mr. Garratt. Essentially, the prohibitions are that they 
agree not to use or to sell these units to be used as housing 
and that if they do subsequently transfer or sell these units 
to someone else that they must inform those individuals of 
these prohibitions that it is not to be used as housing.
    Mr. Rush. And if they do, they are subject to civil----
    Mr. Garratt. Let me ask my colleague who wants to weigh in 
on this, sir.
    Mr. Kempf. I did want to also mention that they were also 
required to identify that there may be potential hazards with 
the formaldehyde as well.
    Mr. Rush. So, in essence, you are telling them that the 
federal government has sold it to them and they can't sell it 
to someone else, is that what you are saying?
    Mr. Kempf. They could sell it to someone else but they had 
to convey to them the issues we had identified in the 
certification that they were not to be used as housing units 
and that there were potential issues with formaldehyde.
    Mr. Rush. Mr. Kempf, what were the other options on the 
table besides the sale of the trailer homes?
    Mr. Kempf. GSA essentially implements working with our 
customer the option that they had chosen. In this case, our 
customer, FEMA, had decided to use the Sale Exchange, so we did 
review the regulations. We did not find anything that would 
stop us from doing the sale so we moved forward with the 
auction.
    Mr. Rush. And can you kind of give the subcommittee an idea 
of the picture of the process? Can you describe step by step 
what a person--conduct a sale for us. What would be some of the 
steps that a person would go through in terms of a sale?
    Mr. Kempf. When a customer does come to GSA and asks for a 
sale under the Exchange Sale Program, we sit with the customer, 
identify the kind of items that were going to be for sale, work 
with them on the best approach to selling, whether that be a 
live auction or we use our internet auctions. We then provide a 
description as provided by our customer agency and then offer 
the items for sale to the general public.
    Mr. Rush. And a normal purchaser, are they a dealer or a 
business, a reseller, or are these individuals, specifically 
with these trailer homes, are they people who buy multiple 
items from GSA or they buy multiple homes? Are they dealers?
    Mr. Kempf. We sold the trailers any number of ways. We sold 
them individually. We sold them in small lots. We sold them in 
larger lots. The general public is allowed to purchase. I think 
some of them were bought by individuals. Some of them were 
bought by dealers. I think there was a range of individuals and 
organizations that did purchase under the auctions that we 
held.
    Mr. Rush. Had you looked at in any way the extraordinary 
requirement or the conditions or considerations that we hold as 
a government agency properties that were formaldehyde infested?
    Mr. Kempf. With our counsel we reviewed the existing 
regulations, the prohibitions in those regulations, and then 
the information that was provided to us. Additionally, because 
there was nothing regarding formaldehyde save for the HUD 
regulations, we felt it was important to provide additional 
information to the potential buyers, which we did with the 
certification and the restrictions on the purchase. 
Unfortunately, the regulations didn't allow us--there was no 
other regulation to review with respect to formaldehyde that 
would have prevented us from going forward with the sales.
    Mr. Rush. That concludes my time. I recognize now Mr. 
Whitfield.
    Mr. Whitfield. Thank you. Thank you all for your testimony. 
Mr. Garratt, how old is FEMA? How long has FEMA been in 
existence?
    Mr. Garratt. Since 1979.
    Mr. Whitfield. 1979. And during that time, I guess it has 
been customary to provide these mobile homes, park trailers, 
and travel trailers for temporary housing, is that correct?
    Mr. Garratt. It preceded FEMA's existence, sir, yes.
    Mr. Whitfield. So it is something that has been going on 
for quite some time?
    Mr. Garratt. Yes, sir.
    Mr. Whitfield. Now in the Katrina disaster, how was the 
decision made to provide this temporary housing? Was it in 
response to a request from the governor of Louisiana or the 
White House or how was that decision made?
    Mr. Garratt. It was a direct result of the situation that 
the states, Louisiana, Mississippi, Alabama, Texas faced at the 
time, yes. Each one of the governors requested individual 
assistance. Each of them requested this form of support as did 
the jurisdictions. How we responded in each one of the 
jurisdictions was largely dependent on what the jurisdictions 
would support. Not all jurisdictions wanted community sites, 
for example, others did. Most of the jurisdictions were very 
interested in having us provide these on an individual's 
private property where we could.
    Mr. Whitfield. So the states were making the basic 
decisions on the type of--whether it was community siting or 
whatever?
    Mr. Garratt. I would say it was a joint decision, sir, as 
opposed to--the state was contributing to that. They were 
indicating preferences and then we were working to try to 
satisfy what it was that a state and again individual 
jurisdictions requested.
    Mr. Whitfield. I notice that HUD has a standard of 4 parts 
per million of formaldehyde in the trailers. These units that 
went out from FEMA initially to Katrina victims, did it exceed 
or was it equal to the HUD requirement at that time?
    Mr. Garratt. The HUD requirement applied only to mobile 
homes. The vast majority of units that FEMA rolled into the 
Gulf Coast were recreational vehicles, predominantly travel 
trailers. As you know, travel trailers are not designed to be 
long term.
    Mr. Whitfield. Right.
    Mr. Garratt. So the answer is they were not built to meet 
HUD standards. They were built to meet industry standards.
    Mr. Whitfield. So they problem exceeded it at that point 
and then at some point, I think in your testimony you indicated 
that you all asked manufacturers to meet this standard, is that 
correct?
    Mr. Garratt. We did two things, is because we had a fair 
number of legacy units, new units remaining following Hurricane 
Katrina, we had states that required the use of mobile homes, 
park models, et cetera, we required states to establish levels 
that were acceptable to them. We would test units and then roll 
in units that met those. We are also separately building or 
having built units that meet a much more rigorous standard, 
which is the .016 PPM standard.
    Mr. Whitfield. The Centers for Disease Control, on April 
24, 2008, released a health study of children in Hancock 
County, Mississippi who were between 2 and 12 years old, and 
the study's purpose was to determine if the upper respiratory 
health of children living in FEMA trailers differed from those 
who did not, and the results showed no discernible difference. 
And I am just curious because of this health issue and the 
publicity surrounding it, did FEMA at any time conduct some 
sort of a survey or accumulate data relating to the health of 
people who lived in these trailers?
    Mr. Garratt. FEMA has not, but we have provided funding to 
the Department of Health and Human Services Centers for Disease 
Control to do some studies, and that includes a children's 
health study.
    Mr. Whitfield. And have any results come in from that?
    Mr. Garratt. We do not have any results yet.
    Mr. Whitfield. And do we know when these results may be 
coming?
    Mr. Garratt. I believe CDC is still working on the 
contract, but I do not have a date.
    Mr. Whitfield. Okay. So that is pending at this point in 
time. Mr. Jones, has EPA formally adopted the California 
standard yet on formaldehyde?
    Mr. Jones. We have not. As I mentioned in my testimony, we 
are considering the adoption of that standard or some other 
approach to regulation formaldehyde in pressed wood, and we 
will be making the decision about what path to go down some 
time in 2011.
    Mr. Whitfield. Okay, so no action before 2011 from EPA. 
Okay. My time has expired, Mr. Chairman. I would like to just 
also welcome Bob Latta of Ohio to this committee. We know he is 
going to be a valuable member of the committee, and I just want 
to formally thank you for joining. Thank you.
    Mr. Rush. The chair recognizes Ms. Sutton for 2 minutes--
excuse me, Ms. Sutton, 5 minutes.
    Ms. Sutton. Thank you, Mr. Chairman. Scientific evidence 
shows that formaldehyde can cause cancer, respiratory problems, 
and other health conditions, and while other governmental 
bodies have made determinations on how dangerous formaldehyde 
really is the EPA has been undergoing its assessment of 
formaldehyde since 1997. Thirteen years later, the assessment 
is still not completed, and I think that is too long, and the 
Government Accountability Office agrees. In 2008 testimony, GAO 
stated that EPA's inability to complete its assessment has had 
a significant impact on EPA's Air Toxics Program. In 
particular, GAO notes that in 2004 when EPA promulgated a 
standard for formaldehyde in plywood and composite wood 
products, EPA's Office of Air and Radiation decided not to use 
the outdated EPA assessment. Instead, EPA used a newer 
industry-funded assessment, which was seen as unusual and 
controversial and found by other EPA staff in the Office of 
Research and Development to have numerous problems.
    GAO also states that the delay will continue to impact 
future EPA regulatory actions, so my question is what is the 
average length of time that it takes the EPA to complete a 
chemical assessment and is it highly unusual for this 
assessment to have taken so long from start to finish assuming 
it is completed on time?
    Mr. Jones. Thank you. It would be hard to answer that 
question, the last question that you had, because of the range 
of chemicals that we evaluate in the Environmental Protection 
Agency. I will say that the administrator has made it clear 
that enhancing our existing chemicals program under TSCA is a 
priority for her, and part of the expression of that priority 
is our assessment on formaldehyde. We believe that within a 
month from now, we will have made public our assessment of both 
the cancer and the non-cancer hazards associated with 
formaldehyde that we will then use to develop a regulatory 
strategy with respect to formaldehyde that will become public 
and that will become public in 2011. But our assessment of the 
hazard of formaldehyde, which right now is in interagency 
review within the executive branch, should be released for 
public comment in about a month's time.
    Ms. Sutton. In your opinion, had the EPA completed the 
formaldehyde assessment in a reasonable time frame, do you 
think this would have impacted the allowable levels of 
formaldehyde in plywood and composite wood products used in the 
FEMA trailers prior to the 2005 hurricanes, anybody?
    Mr. Jones. From the EPA, I would say that a big priority of 
this Administration is our implementation of TSCA as well as 
reform of TSCA, and I think that is because the last time we 
have taken a regulatory action under section 6, which is the 
banning or restriction provisions of TSCA, was 1991, and I 
think it is a combination of the limitations in that statute 
and the agency being a little bit gun shy after we lost a court 
case in 1991 around that. I think had we established some 
formaldehyde standards it may well have impacted the situation 
if we had done that before 2004.
    Ms. Sutton. I appreciate your candor and the answer, and I 
also appreciate the fact that obviously this is a new 
administration, and I hope that they are going to be far more 
aggressive in getting things done in a timely way. Thank you.
    Mr. Rush. The gentle lady yields back. The chair now 
recognizes Mr. Latta for 2 minutes--I am sorry, 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman. I appreciate that. 
Gentlemen, thanks very much for coming before the committee 
today. I am not sure if I missed it in reading through your 
testimony or if it is maybe not there, Mr. Garratt, how much 
did we pay for the trailers in total? Do you have a figure on 
that when all the trailers were purchased in question?
    Mr. Garratt. I don't have a figure although I have heard 
several of the folks here cite the figure of over $2 billion, 
and by trailers for all of the forms of temporary housing units 
that were purchased following Hurricane Katrina.
    Mr. Latta. You say $2 billion?
    Mr. Garratt. I heard that figure cited here. I don't have 
the figure in front of me that gives that.
    Mr. Latta. If we could get that, I would appreciate that 
just to check that. And also in looking at the testimony we 
were paying about $130 million to store those units. The next 
question I guess I have is of the 22,635 units that are left 
out there that haven't been sold through a large lot, I guess 
one of the questions I have is as these things are being sold 
when the inspections were being done, and maybe all three of 
you could answer, did you inspect a certain model or each one 
of these had to be inspected individually before they went out 
for the formaldehyde level?
    Mr. Kempf. GSA takes the representations that its customer 
makes with respect to the property being sold but we don't 
actually perform an independent inspection on the property 
itself. And often times on the lots, they are open for 
inspection by perspective buyers.
    Mr. Latta. Okay. You say you are taking the representations 
from who, please?
    Mr. Kempf. From our customers. In this case, it would be 
FEMA.
    Mr. Latta. Okay. So on FEMA's side then, going back, Mr. 
Garratt, are we saying then with the--so you all had done the 
inspection for the formaldehyde level, is that how I understand 
that?
    Mr. Garratt. We can test for formaldehyde but we don't 
necessarily inspect for it, and we did not test for 
formaldehyde in the vast majority of units that were put up for 
sale.
    Mr. Latta. Okay. I guess the next question then is as these 
units are being sold, what kind of notification was put into 
the trailer? Was it by FEMA or GSA saying that these aren't 
supposed to be inhabited for any length of time, not for long-
term?
    Mr. Kempf. I believe there were two things done. One, there 
was a sticker placed on the window that talked about the 
potential of formaldehyde and that it to be used as housing. 
Secondly, each of the purchasers before they bid on the auction 
was required to sign a certification that they understood about 
the nature of the formaldehyde potential and that they weren't 
to be used for housing and that that would be passed on in 
subsequent sales.
    Mr. Latta. Now when you say in subsequent sales, is that 
something that is put on--like is there a title to these units?
    Mr. Kempf. Actually there is a form that is given to the 
purchasers that would allow them to go to the state agency and 
get an actual title for the unit.
    Mr. Latta. I was just kind of curious because I know like 
in the State of Ohio like if a car has been damaged in a 
certain way sometimes something is put on the title, and was 
there something that was placed on the title so when these 
things were transferred that it would say these were purchased 
through GSA by way of FEMA that there could be a health risk in 
these?
    Mr. Kempf. Let me confer with one of my colleagues who is 
here.
    Mr. Latta. Thank you.
    Mr. Kempf. We would not have put that on anything except if 
we sold scrap units, then we would put that restriction on.
    Mr. Latta. And then just following up on that line, is 
there any follow-up, would anybody ever spot check to find out 
where these things went to make sure that the label was still 
on the units after they were sold and placed out in the 
consumer stream?
    Mr. Kempf. I don't know that we have gone out and 
inspected, but we did get some reports and did follow up with 
them with a referral to our Inspector General that sales were 
being made. In two instances, we found sales being made without 
the proper disclosures in accordance with the certifications 
that were made during the auction, and those were referred to 
our Inspector General for review.
    Mr. Latta. Just to follow up quickly on that. I know my 
time has expired. What is the Inspector General's authority 
then for that review or what is the penalty or what is the 
follow-up then through the Inspector General when someone has 
removed one of these labels?
    Mr. Kempf. I am not familiar with their authorities but 
there are criminal liabilities which I referenced in my 
testimony in federal statutes.
    Mr. Latta. Thank you very much. I yield back, Mr. Chairman.
    Mr. Rush. Mr. Sarbanes is recognized for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Let me just preface 
this by saying what I always say when we have hearings on 
chemicals, which is that if the public understood how little 
regulation there is of chemicals, they wouldn't believe it, but 
I think over time they are discovering it, and I want to thank 
the chairman for the hearings he has had informing TSCA and 
other efforts to bring more of a regime to govern chemical use 
in this country. The travel trailers that are being sold now by 
private concerns are presumably now in a lesser standard than 
the ones that you have demanded or you have been able to 
procure from manufacturers going forward, right, because the 
standard you are using----
    Mr. Garratt. Correct, sir.
    Mr. Sarbanes [continuing]. Is much higher than what is 
still being delivered out there in the private market?
    Mr. Garratt. Correct. As far as the new travel trailers, 
they are being produced to our specifications. That is correct.
    Mr. Sarbanes. Okay.
    Mr. Garratt. By the way, sir, I would also like to 
challenge what appears to be the prevailing misperception here 
that the units that we are selling right now are in some way 
not ordinary units. In fact, all of the travel trailers that we 
are offering for sale through GSA were ordinary units. They 
were built to meet or exceed industry standards. Many of them 
were purchased off the lots, and they were built using ordinary 
building standards, so they are no different than any units 
that are being commercially, have been commercially produced, 
and are being lived in by or occupied or used by millions of 
people throughout the United States.
    Mr. Sarbanes. Understood. But you have created, you have 
staked out now a new standard.
    Mr. Garratt. Correct.
    Mr. Sarbanes. And I am curious in terms of EPA, do you 
think that is where we are headed? Like what do you think of 
this standard that has been set now by FEMA?
    Mr. Jones. As I mentioned, our assessment is right now in 
an interagency review being evaluated so it is a little bit 
premature, but I will say that it is in the ballpark of the 
number that the agency currently has in that interagency review 
that will be made public. That process wraps up in the near 
future.
    Mr. Sarbanes. Well, I would suggest that by reason of FEMA 
having now set a new standard, it just raises the urgency on 
EPA to move faster because there is going to be a gap now, 
right, there is people that are going to assume ownership of 
these trailers and other kinds of housing that will be exposed 
under a lesser standard than what EPA has carved out--what FEMA 
has carved out and EPA needs to catch up with that new standard 
quickly.
    Mr. Garratt. Sir, I just need to clarify one thing, and 
that is FEMA is not a standard-setting organization. We 
establish specifications.
    Mr. Sarbanes. I understand. It is the best practice you put 
in place, not a standard, but hopefully the standards will 
follow behind that. I am real curious, who is buying these? You 
talked about 11 lots being auctioned and so forth. Who is 
buying those? Just give me some examples.
    Mr. Kempf. The large lots were generally bought by dealers. 
The individual units were bought by individual buyers. If you 
need further information, I think we can provide that to the 
committee.
    Mr. Sarbanes. Yeah, I would be curious to get that 
information.
    Mr. Kempf. If you need it, we can provide the list.
    Mr. Sarbanes. And the other question is, is there any 
affirmative like follow-up that you do to just kick the tires 
on whether the certification they have made that they are not 
going to use these trailers for certain things that that is 
being followed through on? Is that something that you plan to 
do or could be done?
    Mr. Kempf. At this point, we have been responding to 
complaints, citizen complaints, referrals to us. And I did want 
to respond back to the question asked by Congressman Latta, one 
of the things that can be done with our Inspector General is a 
referral to the U.S. Attorney for prosecution if they find that 
the certifications were not complied with.
    Mr. Sarbanes. Well, I would encourage you maybe to do a 
more systematic follow-up because if stories accumulate that 
these things ended up with the wrong use then people want to 
know why that wasn't done. And, real quickly, the last question 
is now that the new trailer, fleet or inventory is being 
purchased, are you going to have enough in time for say the 
next hurricane season? What is the projection there?
    Mr. Garratt. Ultimately, it is going to depend on what the 
demand is in response to any given incident. What we plan to 
have is a baseline inventory of 4,000 units that we will 
maintain at two sites. That will be sufficient, we believe, for 
us to fill the gap while we stand up, operationalize, and get 
production lines moving to then provide units on a basically 
just in time delivery schedule. So the answer is we believe 
that in a normal disaster environment that 4,000 will be 
sufficient to provide that gap.
    Mr. Rush. The chair recognizes Dr. Gingrey.
    Mr. Gingrey. Thank you, Mr. Chairman. Mr. Garratt, just 
briefly, explain to us in regard to a mobile home versus a 
travel trailer. You know, we are all familiar with the 
controversy that occurred at the CDC in regard to the report 
and the testing and all the heads that rolled in that agency 
over the report or lack of a report. But I am curious to know 
was the problem just in these travel trailers or also in the 
mobile home type structure that is designed for permanent 
living? I think you said in your testimony these travel 
trailers are really kind of a weekend sort of thing and folks 
are not supposed to be living in those day in and day out, 
seven days a week, you know, 24-7. Explain a little bit about 
that, you know, why these travel trailers were put on lots 
rather than mobile homes.
    Mr. Garratt. Just a little context, mobile homes, typically 
800 square feet plus, travel trailers 200 square feet plus. 
Mobile homes have very robust ventilation systems and they are 
also built to HUD standards. Travel trailers are not built to 
HUD standards and they don't have robust ventilation systems. 
The result, when formaldehyde builds up in a travel trailer 
there is less ventilation taking place to remove that.
    We used travel trailers because 80 percent of the units 
that we placed in Louisiana were travel trailers and they were 
on individuals' private property, and that is because people 
wanted their units on their property to help augment their 
ability to rebuild their homes and because that is the only 
unit that will fit on someone's private property. They are 
quickly made. They are mobile. We can roll them in. We can set 
them up quickly and get somebody stabilized relatively quickly, 
so that is why we used travel trailers in such numbers in the 
past. Also, there were restrictions in terms of the floor plain 
on the use of mobile homes in sections of the Gulf Coast that 
also further reduced our ability to use mobile homes or larger 
units down there.
    Mr. Gingrey. So going forward in the future, is it safe to 
say that FEMA would not do that in the future?
    Mr. Garratt. No, sir. It would be safe to say that what we 
are no longer going to do are put travel trailers in a 
community site setting. In other words, community site settings 
are for people like families who are renters, and so they don't 
have some place--a house to rebuild or necessarily an apartment 
complex to go back to, and there may not be apartments that are 
built for some period of time, and so they are likely to be in 
that community site setting for a long period of time.
    A travel trailer is no place for someone to live for a long 
period of time. That is why we are restricting their use to 
private sites and strictly those sites that we believe can be 
rebuilt within a relatively short period of time, say six 
months. Further, all of our units are going to be formaldehyde-
reduced units, as well as have these very robust mobile home 
style ventilation systems to help further improve the 
formaldehyde--
    Mr. Gingrey. In the travel trailers?
    Mr. Garratt. That is correct.
    Mr. Gingrey. All right. Thank you, Mr. Garratt. I am 
reassured by that. Mr. Kempf, let me ask you this following on 
with what my friend from Ohio, Mr. Latta, was just asking you. 
You testified that the GSA provides full and complete 
descriptions including known deficiencies if such information 
is provided by the owning agency. Did you tell people 
interested in the auction that these trailers indeed had issues 
with elevated amounts of formaldehyde, mold, water damager, and 
gas leaks?
    Mr. Kempf. We did offer in the description the fact that 
there were issues, potential issues, with formaldehyde. On none 
of the other issues that you had brought up were conveyed to us 
by the owning agency, so I don't believe we discussed any of 
that.
    Mr. Gingrey. Okay. You stated that GSA coordinated with 
FEMA to develop a certification statement to inform purchasers 
of potential formaldehyde levels and other restrictions. What 
criteria did you use to establish the certificate and the 
information provided on it? Did you coordinate with any other 
federal agencies besides FEMA?
    Mr. Kempf. Just let me confer with my experts. No. We did 
confer with FEMA and with our counsel in both agencies to 
develop this certificate.
    Mr. Gingrey. All right. Let me ask you one final question 
in the 10 seconds that I have left. You state that on March 2, 
2010, just a month ago, GSA sent an electronic mail, e-mail 
message to buyers of the travel trailers reminding them of the 
requirements of the certification. What did the certification 
message state?
    Mr. Kempf. The exact certification that was provided at the 
auction?
    Mr. Gingrey. Yes.
    Mr. Kempf. I think we have a copy of it that we can provide 
to the committee. It was a rather--it is about a half a page 
document.
    Mr. Gingrey. Mr. Chairman, I would request that they 
provide that to the committee. I think that is very important 
that we have that as part of the record.
    Mr. Rush. Without objection.
    Mr. Gingrey. Thank you, Mr. Chairman. And I thank you, Mr. 
Kempf. I see my time has expired so I will yield back to the 
chairman.
    Mr. Rush. The chair thanks these witnesses and thanks the 
members. We are going to dismiss this panel. Again, we want to 
thank you so much for taking the time to come and share with us 
your observations and we look forward to working with you in 
the future. The record will remain open for 14 days, and in 
that 14-day period of time the committee members through an 
informal writing will be able to ask questions, and we ask that 
you respond in a timely manner. Thank you so much.
    The committee will now ask the second panel to please be 
seated. The chair recognizes the second panel. I want to 
introduce the second panel to the subcommittee members. On my 
left is Mr. Gabe Chasnoff. He is the Director and Producer of 
Renaissance Village, which is a documentary that was described 
in earlier testimony. Seated next to Mr. Chasnoff is Dr. Corey 
Hebert, who is the Chief Medical Officer for the Recovery 
School District for the Louisiana Department of Education. And 
next to Dr. Hebert is Mr. Curtis Howard, President of the 
National Association of State Agencies for Surplus Property.
    I want to inform the witnesses that it is the practice of 
this subcommittee to swear in witnesses, so I ask that you 
would please stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Rush. Let the record reflect that the witnesses have 
all answered in the affirmative. Mr. Chasnoff, you are 
recognized. I think you have some film for us for your 
testimony, so we will give you about 10 minutes for your 
opening statement.

TESTIMONY OF GABE CHASNOFF, DIRECTOR AND PRODUCER, RENAISSANCE 
 VILLAGE; COREY HEBERT, M.D., CHIEF MEDICAL OFFICER, RECOVERY 
  SCHOOL DISTRICT, LOUISIANA DEPARTMENT OF EDUCATION; CURTIS 
 HOWARD, PRESIDENT, NATIONAL ASSOCIATION OF STATE AGENCIES FOR 
                        SURPLUS PROPERTY

                   TESTIMONY OF GABE CHASNOFF

    Mr. Chasnoff. First, I would like to thank the committee 
for inviting me to speak about my film, Renaissance Village. It 
is not likely a film you would have seen on the shelves of 
Blockbuster or download on Netflix. In fact, Renaissance 
Village has not received any major distribution through any 
major film company, and when I asked them why that was the 
answer was always the same, because people don't care anymore 
about Hurricane Katrina, formaldehyde poisoning and FEMA 
trailers. This committee hearing, I believe proves them wrong. 
Renaissance Village is named for the largest FEMA trailer park 
that was established after Hurricanes Katrina and Rita 
devastated the Gulf Coast in 2005. The film was produced over 
the course of 18 months from January, 2007 to June, 2008, and 
focuses on 5 residents desperately trying to reassemble their 
lives after losing nearly everything in the storms.
    At the beginning of the shoot no one in the media, 
government or inside the trailer park was talking about 
formaldehyde in FEMA trailers. We had no idea the story was 
going to break. I was an eyewitness to the transformation many 
residents experienced as they went from victims of a natural 
disaster to victims of federal negligence. It is important to 
point out that I tried to keep the story in Renaissance Village 
as objective as possible. My goal in creating the film was not 
to placate the federal government or the park residents. I 
wanted to let each side tell their story and let those voices 
speak for themselves.
    To me, the story of Renaissance Village is more than just 
about formaldehyde in FEMA trailers or government red tape. It 
is about the connection between history and collective memory 
in one of the most socio-economically challenged communities in 
America. Among many of the residents I met, the frustrating 
experience with FEMA was compounded by an already existing 
sense of being wronged by the government. Decades of racism, 
neglect, impoverishment, and socio-economic isolation hardened 
into feelings of dejection and worthlessness. The residents of 
Renaissance Village were not simply in need of disaster 
assistance. The residents needed reassurance that their 
existence mattered to their government, to their neighbors, and 
to the American people. I will now present as part of my 
testimony a short compilation of the film.
    [Video.]
    Mr. Rush. Do you want to bring your testimony to a close?
    Mr. Chasnoff. Yes. I yield it back to you. Thank you.
    [The prepared statement of Mr. Chasnoff follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The chair now recognizes Dr. Hebert. Dr. Hebert, 
you are recognized for 5 minutes or thereabouts.

                TESTIMONY OF COREY HEBERT, M.D.

    Dr. Hebert. Thank you, sir. Chairman Rush, and members of 
the subcommittee, I just want to thank you for allowing me to 
speak. This is something that hits very close to home for me. 
Just to give you more background. I am the Chief Medical Editor 
for WDSU television which is an NBC affiliate, and I do 
investigative reporting as a physician. And what I have found 
is that this is a very controversial emotionally charged issue. 
We know this. But it really shouldn't be so controversial 
because in the grand scheme of things it is not very 
controversial at all. Many locations in New Orleans, and I have 
lived there for 13 years, my office was only closed for 30 days 
after Hurricane Katrina. Myself and my partner were the only 
pediatricians practicing in New Orleans so I think I am one of 
the few people that can tell you from the beginning, my office 
was reopened 30 days after, about the actual chronology of what 
I have seen on the ground in New Orleans.
    Many of my patients who were placed in FEMA trailers 
initially reported symptoms of nasal congestion, nasal burning, 
watery, stinging eyes. Some of the patients were atopic before 
they started living in the trailers, and atopic obviously means 
having allergic symptoms. But the group of people I want to 
talk about today, these people had no allergic symptoms prior 
to living in these trailers. They were perfectly healthy 
individuals. In these particular patients the symptoms usually 
progressed and worsened with more and more exposure to the 
formaldehyde.
    Over time the prolonged exposure resulted in chronic 
conditions like bronchitis, pneumonia, asthma, sometime 
neurologic problems. I am the chairperson of the Head Off 
Environmental Asthma Program of Louisiana, which is funded by 
the National Institutes of Environmental Health, and we have 
seen lots of patients that have been exposed to formaldehyde 
that have gotten progressively worse and worse. I have had this 
aforementioned experience including rashes and skin infections 
and skin irritations with over 500 patients. Children are at 
most risk for this toxicity and makes it come sooner to 
effective gas exposure due to many reasons, and I will give you 
5 of them.
    Children have a greater surface to mass ratio in their 
lungs and, therefore, they absorb more toxins. Children also 
breathe faster. When they breathe faster, they take in more 
toxin. They spend more time at home than their older children 
counterparts. They have permanent metabolic systems that may 
not be able to clear formaldehyde more appropriately as an 
adult may. And also formaldehyde is a relatively heavy gas so 
it is going to live a little bit closer as settled to the 
ground closer to where the children breathe, so when you have a 
toddler 1-year-old, he is going to get prospectively more 
formaldehyde exposure than someone who is obviously taller.
    Moreover, since this chemical is a known carcinogen, it is 
a known carcinogen, it is not that we think it is a carcinogen, 
maybe it is a carcinogen, no, we know it is a carcinogen, and 
the EPA, in fact, no matter that they are coming out with soon, 
they right now classify formaldehyde as B1, a probable human 
carcinogen. The International Agency for Research on Cancer 
classifies formaldehyde as Group 1, sufficient evidence for 
carcinogenicity in humans. Now you can read all types of data 
and look at all types of reports, but the point is that we have 
done a lot of studies in rats. We know that it is a carcinogen 
in rats. But guess what? We are not rats. People are not rats, 
and we know that--maybe not all people. Some people are rats. 
But we know that it is a big problem, okay, and we know that we 
don't have the data to support it.
    In business, I run a business as well, it is an if then 
statement, if then, then this. But in medicine, we can't be 
like that. We have to say if this then maybe this, and if maybe 
this causes cancer maybe then we can no longer sell these 
things. I have several key findings in here, but the Centers 
for Disease Control put out a very concise document. You guys 
understand that. You guys have seen it, so I am not going to go 
through it, but the whole point to get as much fresh air as 
possible. Inappropriate, it is inappropriate.
    Now, in summary, I know I have a few seconds left, when 
these trailers were constructed the documentary even shows 
someone who built these trailers, big government 
specifications, basically for all intents and purposes a blank 
check for the industry to produce units without regard to human 
health. There can be little doubt that after receiving 
government orders any manufacturer, any manufacturer would 
speed up production and widen profit margins because this is 
America. It is capitalism. It is what we do. But in a broader 
sense the extremely high percentage of trailers found in tests 
do have excessive formaldehyde. It is not that people in the 
Gulf Coast don't appreciate the fact that they had nothing--I 
would rather make sure that someone had a roof over their head 
as opposed to having a formaldehyde-laden trailer. But the 
point is that we need to do something about it. We need to stop 
this problem from being a Gulf Coast problem to a national 
problem.
    One thing I do want to say before we close is that there 
are weak warnings out there, not really appropriate, and we are 
trying to get insight today to avoid these huge problems. When 
you have two government entities, two, you know, CDC, EPA, and 
then FEMA, then GSA, when you have two, or four organizations 
that have two diverging concepts, what is going to happen is 
that at one point it is going to converge. It is going to 
converge. And if people are totally disagreeing about the level 
and the safety of these things when it converges it is going to 
be a problem for the people in the trailers, but it is going to 
be a problem for the people sitting in these chairs because 
somebody has got to do something about it. And they are going 
to be held to the mat for us sitting before you right now 
saying this is a problem now.
    We don't need this to come back in 20 years and say, look, 
I want right now people to understand if we do something about 
this now people understand it was a dire need, but if we 
continue to do it and it is a problem that is going to be 
happening over and over again. Common sense in America, I see 
it every time I go into an urban area, common sense has a white 
line around it like someone killed it laying right in the 
middle of the street, and I am sick of people killing common 
sense in America just for money and greed.
    Thank you.
    [The prepared statement of Dr. Hebert follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The chair now recognizes Mr. Howard for 5 minutes 
or thereabouts.

                   TESTIMONY OF CURTIS HOWARD

    Mr. Howard. Thank you. Mr. Chairman, Ranking Member 
Whitfield, distinguished members of the subcommittee, my name 
is Curtis Howard. I work for the State of Illinois as the 
administrator of the Federal Surplus Property Program. I am an 
advisor in township government and an auxiliary deputy sheriff 
back in my county. I also serve as the current president of the 
National Association of States Agencies for Surplus Property or 
NASAP. Permit me to take just a moment to explain who we are. 
Our association is comprised of all 50 states and U.S. 
territories. We represent more than 67,000 organizations in 
your communities. We serve as the conduit for federal financial 
assistance in the form of surplus property and equipment for 
your public and private schools, for public libraries, fire, 
and police departments, veterans homes, senior centers, 
homeless shelters, small minority businesses and so on.
    Our states throughout the nation work to transfer federal 
personal property to those who need it most. The Federal 
Surplus Property Program exists because Congress wisely 
understood decades ago that the highest and best use of federal 
surplus property is reutilization. Federal agencies do now, and 
always will, continue to have preference on reutilization of 
federal equipment before our program, but when those needs are 
met the next best use of surplus property should be to transfer 
or donate it back to the states across the nation, place it 
back into service in our communities.
    Congress believed that this was indeed the best practice 
when it created the Property Act in 1949. At times, our federal 
agencies appear to possess the knowledge and display the 
characteristics that make them good stewards of the public's 
property. Supporting creation of the 2006 amendment that 
allowed the donation of these FEMA units to the state is a good 
example. In 2006, FEMA and GSA stood tall with our association 
and the Manufactured Housing Association recognizing that 
reutilization of federal properties such as these trailers and 
mobile homes could maximize the useful life of taxpayer-funded 
assets.
    Reutilization, transfer, and donation always shall be the 
first and best use of federal excess and surplus property. The 
state agencies that comprise NASAP have placed nearly 6,500 
travel trailers and mobile homes into our communities more than 
$117 million in federal financial assistance. During 2007 and 
2008 because of the ingenuity of our states and communities 
they were reutilized, not as temporary housing but as mobile 
command units for our police and fire departments, as portable 
offices for road districts, and heating and cooling centers or 
first aid stations for seniors and the general public during 
community fairs and festivals or for tool storage for trailers, 
and the list goes on.
    But somewhere in late 2008 and 2009 during the storm of 
media scrutiny in the face of public outcry and class action 
lawsuits, FEMA lost sight of the very public policy it earlier 
chose to support, and when the court order lifted, plans to 
sell the remaining 100,000 were swiftly announced with little 
regard for the very excess in donation programs FEMA earlier 
pledged to support. Now I do not wish to mislead the members of 
this committee. NASAP could not, not on its best day, ever hope 
to transfer 100,000 travel trailers or mobile homes, but we do 
continue to have community interest. We do have need. We have 
donee interest for several thousand more and we have and 
continued to this day conveyed this interest to FEMA and GSA.
    The demand remains high. At first, we were told no. When 
the pressure to sell hit, NASAP stood with the Manufactured 
Housing Association and the Sierra Club in opposition and 
against these public sales. NASAP's core mission is to 
reutilize every day in every state, and we place these trailers 
into the hands of thousands of organizations such as a small 
town manager in Missouri who created the town's first 
administrative office out of a FEMA mobile home. And in Texas, 
the City of Christine, Texas replaced an old Morgan building 
used for a town hall with a FEMA mobile home, and the success 
stories are endless.
    Just yesterday, nine states returned to Brooklyn, 
Mississippi for the second time this month to view and select 
more travel trailers, and for the second time federal interest 
for more than 1,000 travel trailers trump the state's interest. 
Federal agencies have priority over our program to acquire 
these units, and they should be reutilized. The federal 
agencies and their programs took nearly 430 units. They got the 
best of the best and our states got the best of the worst. Nine 
states were present on site and by phone and our nine states 
came home with less than 60 units yesterday.
    Each state's Federal Surplus Program provides 
accountability on how federal surplus property is used. GSA 
holds our feet to the fire ensuring each state complies with 
federal regulations on donated property. But who regulates what 
the federal agencies do with these trailers, and why are they 
using them and for what purpose? I understand FEMA is accepting 
bids to scrap the remaining inventory of trailers meaning that 
both the taxpayers and the states lose their investment. If the 
states have found the means and the ingenuity to reutilize this 
equipment beyond temporary housing, doesn't it make sense to 
allow the states to try and maximize the taxpayer dollar by 
allowing our program one last chance before they are destroyed?
    If even one more school got to use that trailer for storing 
their baseball equipment and it meant the school district 
didn't have to rent or spend money for rental storage, isn't 
that what our program is all about? In closing, I urge this 
committee to take the necessary steps to ensure that the public 
interest are put before future sales. When utilized for 
purposes other than housing, these units offer an alternate and 
safe use within our communities rather than sale or 
destruction, and what better use of taxpayer dollar can there 
be besides donating back to the very communities and taxpayers 
who funded it.
    Mr. Chairman, members of the subcommittee, on behalf of the 
67,000 organizations that NASAP represents, I thank you very 
much for this opportunity to testify and be heard. I am happy 
to answer any questions you may have.
    [The prepared statement of Mr. Howard follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. Mr. Chasnoff--I mean, Mr. Howard, the chairman 
recognizes himself for 5 minutes. So your organization upholds 
the sale?
    Mr. Howard. Correct.
    Mr. Rush. And that observation was based on?
    Mr. Howard. We requested reutilization to be able to 
transfer these back to the communities so that they could be 
used not as housing, temporary housing, but for the purposes of 
mobile command centers, storage units and so forth.
    Mr. Rush. The question of the relative safety of the units, 
did that ever come into consideration?
    Mr. Howard. Yes, it did. In fact, many of our states tested 
the OSHA standards and even any of the states that had EPA 
regulations or standards, those were also tested, and I can 
tell you that less than 1 percent of those that were donated to 
the states had any levels of formaldehyde.
    Mr. Rush. You indicated that, you used the phrase to 
describe this latest sale. When did that sale occur?
    Mr. Howard. Yesterday it was an opportunity for the federal 
agencies and for NASAP, the states, to go back in and look at 
these 1,000 travel trailers and mobile homes that are located 
in Mississippi.
    Mr. Rush. These are same trailers and mobile homes that 
were part of the 100,000 or so?
    Mr. Howard. Yes, sir. Actually these were part of trailers 
that were already offered for public auction and I believe the 
bidder defaulted to GSA, and, therefore, they came available, 
and so we asked for one more chance to reutilize and donate, 
and so we did get that chance.
    Mr. Rush. And the outcome of that, you said the federal 
government got the best of the best and the states got the 
worst of the worst?
    Mr. Howard. Yes.
    Mr. Rush. Nine trailer homes out of approximately how many?
    Mr. Howard. Actually we had--there were 1,000 trailers 
offered for screening and viewing of all different sorts of 
conditions, and out of those 1,000, 430 were selected by other 
federal agencies for reuse and then the states got to go look 
and see what was left and those states selected--9 states 
selected approximately 58 travel trailers and mobile homes out 
of that.
    Mr. Rush. And none of these, I assume, were used for 
housing?
    Mr. Howard. That is correct, sir. We do not use them for 
temporary housing.
    Mr. Rush. Mr. Chasnoff, what conclusions have you arrived 
at that would give this subcommittee and also federal agencies, 
what conclusions have you discovered? What are some of the 
advice that you would give us based on your observations?
    Mr. Chasnoff. Based on my experience, I would say that 
government and non-government agencies need to take more 
consideration of the cultural background and the personal, 
emotional, and psychological components that go into relief 
efforts. In the case of Renaissance Village, I was there when 
the Stafford Act expired when there were 1,700 of 3,000 people 
left, and those 1,700 were coming from communities that really 
they didn't have savings or mutual funds or anything to fall 
back on. And I think one of the biggest problems that the 
residents encountered and that I witnessed was that there was 
no personal consideration or personal contact with the 
residents. I think simply had FEMA come and met with people 
face to face and asked are you okay, is there anything more we 
can do, and just try to make it more personal, I think that 
would have helped.
    I also certainly don't think using travel trailers is a 
good idea, and I think that in the future there needs to be 
more other methods. With the amount of money that went into 
mobile homes and travel trailers and the Katrina cottages, 
which was another method of housing victims of the storm, there 
could have been some other type of temporary communities built.
    Mr. Rush. What is the current status of Renaissance Village 
now? Your documentary was--how dated is your documentary?
    Mr. Chasnoff. We released it last year. Renaissance Village 
closed in June of 2008. When it was closed, there were still 
about 30 trailers that were still occupied and FEMA had to take 
them out, remove them, and then put them somewhere else, but 
since then a lot of the residents who were featured in the film 
were kind of scattered.
    Mr. Rush. My time has concluded. Dr. Hebert, what happens 
after exposure to high levels of formaldehyde? Do the 
conditions that you described, do they end once the exposure is 
gone? Are there any ongoing illnesses or symptoms that one 
might have?
    Dr. Hebert. Yeah. Actually it is very interesting. It seems 
to be a very bi-modal distribution meaning you have these 
initial symptoms but most of the time with patient populations 
in New Orleans you address those issues, so if a patient has 
asthma and they say they have been in a trailer then we address 
those issues, and then we give them medicine and then they have 
to take medicine every day to keep the symptoms away. But then 
after a while the bi-modal portion of this, people start having 
more severe symptoms requiring more and more medicine, 
pulmonary issues.
    And, you know, the whole carcinogen thing, we don't know. I 
haven't had any patients that have come down with a new cancer 
or neoplasm since they have been exposed to the formaldehyde in 
the trailers. However, the symptoms get progressively worse. 
And there are several of my patients, very personal situations 
where the patients are removed out of the FEMA trailer and they 
continue to have the same symptoms so it seems like more of a 
remodeling of people's lungs as opposed to, you know, you eat 
peanuts, you get an allergic reaction. You stop eating peanuts, 
no more allergic reaction. That is not the way this works. You 
are exposed to formaldehyde. You do damage to your lungs and 
you have damage to your lungs for an extended period of time. 
That is the way this is playing out, and that is why we need 
more studies to see.
    Mr. Rush. My time has concluded. The chair now recognizes 
the ranking member, Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you all very much for your testimony. 
Mr. Howard, I am not sure I understood you correctly, but did 
you say that less than 1 percent of the trailers that were 
given to the state and local communities had an elevation of 
formaldehyde?
    Mr. Howard. Yes, sir. Out of the 6,500 travel trailers that 
were issued to the states, less than 1 percent had any type of 
elevated level.
    Mr. Whitfield. How do you explain that?
    Mr. Howard. You know, one of the--I think as we heard FEMA 
say earlier today there were some commercial models and then 
there were, I believe, some FEMA spec models, which was sort of 
a downgraded version of, you know, whether it is a slide out or 
if it has 1 bedroom or 2 bedrooms, and things like that. Many 
of the states that acquired these during 2007 and 2008 had 
acquired the commercial style trailers which were readily 
available in any market.
    Mr. Whitfield. What were the total number of people that 
actually lived in these trailers provided by FEMA, whether it 
was a travel trailer or whatever it was? Does anyone know the 
total number of people that lived in it at one time or the 
other?
    Dr. Hebert. I have looked at several different resources, 
and we have heard anywhere from 120,000 to 180,000 people. I 
think that is a very inflated estimate. I think it is closer to 
90,000.
    Mr. Whitfield. 90,000. Okay. And what would you say is the 
longest period of time that any person lived in these trailers?
    Dr. Hebert. You know, it is very interesting. When you 
drive through the streets of New Orleans or the Mississippi 
Gulf Coast people still live in these trailers, and so but on 
average I would say about 2 to 3 years on average people lived 
in these trailers. And, you know, some people, to be very 
honest with you, had no problems while living in the trailers 
that they know of, to be very honest. But the most important 
part is that we just don't know the long-term effects.
    Mr. Whitfield. Right. Has the Centers for Disease Control 
or any other health agency tried to do a scientific analysis 
and collect data on people who lived in these trailers?
    Dr. Hebert. Yes. Centers for Disease Control did a 
preliminary study on the short-term effects, and that 
information will be out very soon. However, there have been 5 
or 6 different vendors that are bidding right now, and I think 
our gentleman from FEMA said earlier about the long-term effect 
that the study to look at the long-term effect of formaldehyde 
in these FEMA trailers has not been awarded yet. It can be 
awarded any day now but it has not been awarded yet so from 
this point on, you are going to have a lag time to see exactly 
what has happened because actually there are several 
universities that are looking at doing the study.
    Mr. Whitfield. I heard him say that it has not been awarded 
yet, but back to CDC. Explain to me again what they are 
actually doing on this issue.
    Dr. Hebert. Basically what they are doing is looking at a 
sample of patients that have been spread throughout, and, to be 
very honest with you, at this point the diaspora has accepted 
so many of these patients it is hard to--it is just like 
herding cats trying to put this thing back together. But we do 
have information on them, and what CDC is doing is looking at 
the amount of time that they lived in the trailer versus the 
amount of symptoms that you had prior to you living in the 
trailer, after you lived in the trailer, and since you have 
moved out the symptoms, and that is the way it is going to be a 
progression of from beginning to long term.
    Mr. Whitfield. Now you indicate that you were only 1 of 2 
pediatricians practicing there for a while, and so you have 
seen a lot of patients. And of the patients that you have seen, 
what percent of those would you say have been diagnosed with 
some sort of permanent disability?
    Dr. Hebert. Disability is a strong word, you know. 
Permanent disability, I would say a new disease process such as 
asthma, bronchitis, those types of things. Of the people 
anecdotally, and I must say anecdotally, of the patients that I 
have seen that have lived in the FEMA trailer let us say for 
more than a year and a half, I went back before I knew--when I 
found out I was coming here. I would say about 20 percent to 30 
percent of them are still on some type of respiratory medicine, 
50 to 70 percent of them, and I know it is a hard one but it 
was hard for me to find these people to catch up with them, 50 
to 70 percent were on medicine while they were in the trailers 
and have since gotten----
    Mr. Whitfield. But the bottom line, at least at this point, 
is that we really do not have any sufficient data on this 
issue.
    Dr. Hebert. On long term. On short term we have a lot of 
data.
    Mr. Whitfield. Okay.
    Dr. Hebert. On long term, we don't.
    Mr. Whitfield. Now after Katrina, I remember we had a 
hearing and there was some testimony at that time that said 
that there were all kinds of toxic elements in play after that 
hurricane hit that affected air, soil, and water quality. So 
the question becomes can we allocate a certain responsibility 
for formaldehyde and then a certain responsibility for these 
other issues or not?
    Dr. Hebert. You know, your point is well taken, and I will 
tell you the lead levels in the soil were very high because the 
water sat for so long. They had lots of different things that 
were going on. It was like a toxic mess for all practical 
purposes. However, once these things--once the water settled, 
once things getting back to normal, certain people got FEMA 
trailers even a year after the storm was over because they were 
still shuffling around and certain people moved into FEMA 
trailers that weren't in them before. I had actually, not a 
patient, a good friend of mine, who was a songstress in New 
Orleans, which you obviously know is a very important thing to 
do in New Orleans. And she sang very well, beautiful. She sang 
at the Ritz Carlton every Saturday.
    When she moved into the trailer 1 year after Hurricane 
Katrina, chronic obstructive pulmonary disease ensued and now 
she still at this point--she lived there for a year and a half, 
almost 2 years, still at this point she cannot sing. She still 
has breathing issues, still on different medicines. So for 
somebody like that, she wasn't playing with toys in the soil. 
She wasn't drinking the water. She was drinking only bottled 
water. So it narrows the field a little bit. But your point is 
well taken that there still may have been things in the air, 
but at a year and a half, 2 years out, she is not doing things 
like normal children would do.
    Mr. Whitfield. Mr. Chairman, when I started asking 
questions, I had 3 minutes, now I have 9 minutes, so I think my 
time has expired.
    Mr. Rush. The chair now recognizes Mr. Scalise for 5 
minutes or thereabouts.
    Mr. Scalise. Thank you, Mr. Chairman. I will start with Mr. 
Howard. I think in 2005 your organization wanted the trailers 
as donations to be used by local communities. Do you claim that 
the trailers are unhealthy or do these claims about the 
trailers being unhealthy with the reports we have gotten on 
formaldehyde, does that change your initial interest in using 
those for people who don't have as many resources?
    Mr. Howard. Well, our association represents a variety of 
organizations, and I think that because there is no interest or 
desire to use these as temporary housing but to use them as 
mobile command centers and other types of assets, you know, we 
are very comfortable in the fact that the transfers and the 
donations that have been made through the program any levels of 
formaldehyde that have been detected by our states are very 
small and residual, and we also have been reutilizing and 
donating trailers that were from the commercial market and not 
necessarily any kind of FEMA specification trailers that were 
built later on down the line.
    Mr. Scalise. Have you all experienced any health problems?
    Mr. Howard. No. Speaking for the State of Illinois, I have 
had 240 some odd travel trailers transferred out there, and I 
got to tell you a lot of them went to police and fire 
departments, and they have been using those for the past 
several years as mobile command centers, and there is just 
absolutely no instance or indication or any notification to my 
office that there is a problem.
    Mr. Scalise. Your testimony states that your organization 
has been doing work for over 4 years and asking the questions 
and the federal government has not provided the service and 
answers that you need. Can you give me--you can tell me in 
brief or just give me a list of what types of questions you 
have asked the federal government that you have not got answers 
to?
    Mr. Howard. Well, the biggest is our demand for the 
donation of federal property, and there obviously is competing 
interest obviously if a federal agency has the need to 
reutilize property then they very specifically have the ability 
to go in and request that and put it back into service for the 
federal government. During the interim of the travel trailers 
and mobile homes, we consistently asked for opportunities over 
the years to be able to screen these mobile homes at the 
various locations, whether in Mississippi or Alabama or 
elsewhere, identify trailers that would be acceptable for 
donation and reuse, and then transport those back. I think 
probably our most difficult conflict in trying to get 
information out is actually being able to sit at the table with 
FEMA or GSA and say here is what is happening in the trenches. 
Here is what is going on at the state level, and here is what 
we see and here is what our donees are seeing. We are regulated 
by GSA, but we don't necessarily get to have a voice all the 
time in terms of what is going on out there.
    Mr. Scalise. Let us see if we can get some better answers 
there, and my time is limited so I apologize because I want to 
ask Dr. Hebert some questions. I appreciate the work that you 
have done in the community and with the Recovery School 
District, and obviously you have done a lot of research in this 
area. You have stated that CDC recommended that FEMA consider 
necessary assistance to Louisiana and Mississippi health 
departments to ensure adequate follow-up including medical 
needs for trailer residents with health and medical concerns 
resulting from residents and FEMA supplied travel trailers or 
mobile homes and formaldehyde exposure. In your experience, has 
FEMA been forthcoming with this assistance in trying to reach 
that objective?
    Dr. Hebert. I personally think that they have made an 
effort. Has the effort been valiant? No. Has the effort made a 
change in the patient population that is the most vulnerable? 
No. But have they reached out? They have. I think that it is 
something that it gets touchy-feely at times because once they 
reach out, how much do they have to satisfy the status quo, and 
I think that they could do a better job than they have.
    Mr. Scalise. Okay. What is your feeling on, and I know your 
testimony addresses this a little bit, but on this proposal to 
sell these trailers in light of the health concerns? Do you 
feel like--just give me your take on it.
    Dr. Hebert. Sure. I don't think that these trailers should 
be sold at this time. I think appropriately remediated, I think 
with the appropriate data. I would hate for the federal 
government to not be able to recoup some of the money that was 
graciously given to our area. I think that is a really good 
idea, but my job is to take care of people, and when I am 
trying to take care of people it really puts a thorn in my side 
when what I am trying to do is being totally negated because of 
the lack of foresight by a government organization.
    Mr. Scalise. I appreciate that. And in your testimony you 
also state that any level of formaldehyde greater than the 
United States background level is unsafe. What is the level 
that is, I guess, safe, and then at what level do you know 
these trailers----
    Dr. Hebert. Yeah. There have been several different studies 
done, .7 parts is really kind of where it needed to be, but the 
level that FEMA is dealing with now is the .16. That is way 
above. That is way above. And so I think that that is where we 
need to be because just like with one cancer cell, it only 
takes one cancer cell to make cancer. It doesn't take 25 at one 
time. I don't have to transport a tumor and plant it in you for 
you to get a cancer. So every body is different, every person 
is different, so we never know where that tipping point is 
going to be to start a neoplasm or cancer.
    Mr. Scalise. Thank you. And I know I am just about out of 
time. Just one quick question to Mr. Chasnoff. In your film you 
got testimony about what happened to people living in the 
trailers prior to the sale. Do you have any information related 
to the current condition of those trailers auctioned off?
    Mr. Chasnoff. I don't.
    Mr. Scalise. I appreciate it. Thank you, Mr. Chairman.
    Mr. Rush. The chair thanks the witnesses for the 
contribution of your time and your information. You have really 
enlightened us and helped us along the way, and we will 
continue to be in touch with you. We want to just ask you, the 
record will remain open for a matter of 14 days, and so there 
might be members of the subcommittee who want to ask you some 
additional questions in writing, and if you would respond in 
writing in a reasonable amount of time the subcommittee would 
really appreciate it. That said, we thank you so much again, 
and thank you for coming to be a part of this. You performed an 
invaluable service, so thank you so very much. With that said, 
the subcommittee now stands adjourned.
    [Whereupon, at 12:26 p.m., the Subcommittee was adjourned.]

                                  <all>

</pre></body></html>
